USCA Case #21-5047

Filed: 05/11/2021

Document #1898149

Page 1 of 1

J^tates (Eourt at (Appeals
For The District of Columbia Circuit

September Term, 2020

No. 21-5047

1:20-cv-03843-UNA
Filed On: May 11, 2021
In re: Justin Michael Rossi,
Petitioner

BEFORE:

Pillard and Walker, Circuit Judges, and Sentelle, Senior Circuit
Judge
ORDER

Upon consideration of the petition for writ of mandamus and the motion for leave
to proceed in forma pauperis, it is
ORDERED that the motion for leave to proceed in forma pauperis be granted. It
is

FURTHER ORDERED that the petition for writ of mandamus be denied.
Petitioner has not shown that he has a “clear and indisputable" right to mandamus relief.
Gulfstream Aerospace Corp. v. Mayacamas Corp., 485 U.S. 271, 289 (1988).
Pursuant to D.C. Circuit Rule 36, this disposition will not be published.
Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Tatiana Magruder
Deputy Clerk

USCA Case #21-5047

Filed: 05/11/2021

Document #1898149

Page 1 of 1

plmteii States dLtmrt of (Appeals
For The District of Columbia Circuit

September Term, 2020

No. 21-5047

1:20-cv-03843-UNA
Filed On: May 11,2021
In re: Justin Michael Rossi,
Petitioner

BEFORE:

Pillard and Walker, Circuit Judges, and Sentelle, Senior Circuit
Judge
ORDER

Upon consideration of the petition for writ of mandamus and the motion for leave
to proceed in forma pauperis, it is
ORDERED that the motion for leave to proceed in forma pauperis be granted. It
is

FURTHER ORDERED that the petition for writ of mandamus be denied.
Petitioner has not shown that he has a “clear and indisputable” right to mandamus relief.
Gulfstream Aerospace Corp. v. Mayacamas Corp., 485 U.S. 271, 289 (1988).
Pursuant to D.C. Circuit Rule 36, this disposition will not be published.
Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Tatiana Magruder
Deputy Clerk

